            DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General
                                                                                  Office of Audit Services

                                                                                      REGION IV
                                                                             61 Forsyth Street, S.W., Suite 3T41
                                     OCT 1 2008                                  Atlanta, Georgia 30303




Report Number: A-04-07-06022

Mr. Bruce W. Hughes
President and Chief Operating Officer
Palmetto GBA
2300 Springdale Drive, Building 1
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (DIG), final report entitled "Review of High-Dollar Payments for Inpatient Services
Processed by Palmetto GBA, Intermediary #380, for the Period January 1, 2004, Through
December 31, 2005." We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles ofthe Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
P.L. No. 104-231, DIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR pt. 5). Accordingly, this report will
be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mary Ann Moreno, Audit Manager, at (904) 232-2687 or through e-mail at
Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-07-06022 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Mr. Bruce W. Hughes

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF HIGH-DOLLAR
   PAYMENTS FOR INPATIENT
    SERVICES PROCESSED BY
PALMETTO GBA, INTERMEDIARY
     #380, FOR THE PERIOD
  JANUARY 1, 2004, THROUGH
      DECEMBER 31,2005




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-04-07-06022
                    Office ofInspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS's Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary's stay is
assigned. The "Medicare Claims Processing Manual," Pub. No. 100-04, Chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
Chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Also, section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high costs.

During calendar years (CY) 2004 and 2005, Palmetto GBA (Palmetto) was the fiscal
intermediary in South Carolina. During this period, Palmetto processed 39 inpatient claims
totaling $10.1 million that had payments of $200,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for inpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 39 high-dollar payments that Palmetto made to hospitals for inpatient services for CYs
2004 and 2005, 23 were appropriate. The remaining 16 payments included 9 overpayments
totaling $110,930 that had not been repaid at the start of our audit and 7 payments for which we
were unable to determine the overpayment amount.

Contrary to Federal guidance, hospitals reported units of service inaccurately. Hospitals
attributed most of the incorrect claims to clerical errors. Palmetto made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in
place in CYs 2004 and 2005 to detect the errors.
RECOMMENDATIONS

We recommend that Palmetto:

    •   refund the $110,930 in identified overpayments related to nine payments;

    •   take appropriate action on the remaining seven payments with excessive units for which
        we were unable to determine the overpayment amount;

    •   use the results ofthis audit in its provider education activities related to proper
        documentation and data entry procedures; and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

PALMETTO GBA COMMENTS

In its August 27,2008, written comments on our draft report, Palmetto agreed to recover the
$110,930 in overpayments and adjust the 16 claims (9 related to the identified overpayments and
7 for which overpayment amounts were not determined). Palmetto stated that it would use the
results of this audit to enhance its existing provider education activities. Additionally, Palmetto
stated that it would implement controls to identify and review all payments greater than
$200,000 for inpatient services. The complete text of Palmetto's comments is included as the
Appendix.




                                                  11
                              TABLE OF CONTENTS




INTRODUCTION                                      1

  BACKGROUND                                      1
    Medicare Fiscal Intermediaries                1
    Claims for Inpatient Services                 1
    Palmetto GBA                                  2

  OBJECTIVE, SCOPE, AND METHODOLOGY               2
    Objective                                     2
    Scope                                         2
    Methodology                                   2

FINDINGS AND RECOMMENDATIONS                      .3

  FEDERAL REQUIREMENTS                            3

  INAPPROPRIATE HIGH-DOLLAR PAYMENTS              .3

  CAUSES OF OVERPAYMENTS                          4

  RECOMMENDATIONS                                 4

  PALMETTO GBA COMMENTS                           4

APPENDIX

 PALMETTO GBA COMMENTS




                                     111
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have pennanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intennediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intennediaries' responsibilities include detennining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intennediaries use the Fiscal Intennediary Standard System and CMS's Common
Working File (CWF) to process hospitals' inpatient claims. The CWF can detect certain
improper payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intennediaries processed and paid approximately
27 million inpatient claims, 5,125 of which resulted in payments of $200,000 or more (high-
dollar payments).

Claims for Inpatient Services

Section l886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetennined
rates for patient discharges. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary's stay is assigned. The DRG payment is, with certain exceptions, payment
in full to the hospital for all inpatient costs associated with the beneficiary's stay. The "Medicare
Claims Processing Manual," Pub. No. 100-04, Chapter 3, section 10.1, requires that hospitals
submit claims on the appropriate fonns for all provider billings, and Chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

Also, section 1886(d)(5)(A)(ii) ofthe Act provides for an additional Medicare payment, known
as an outlier payment, to hospitals for cases incurring extraordinarily high costs.! The Medicare
fiscal intennediary identifies outlier cases by comparing the estimated costs of a case with a
DRG-specific fixed-loss threshold. 2 To estimate the cost of a case, the fiscal intennediary uses
the Medicare charges that the hospital reports on its claim and the hospital-specific cost-to-
charge ratio. Inaccurately reporting charges could lead to excessive outlier payments.




IOutlier payments occur when a hospital's charges for a particular Medicare beneficiary's inpatient stay
substantially exceed the DRG payment.

2A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                          1
Palmetto GBA

During our audit period (CYs 2004 and 2005), Palmetto GBA (Palmetto) was the fiscal
intermediary in South Carolina. Palmetto processed 39 high-dollar inpatient claims during the
period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for inpatient services were appropriate.

Scope

We reviewed the 39 high-dollar inpatient claims totaling $10,116,834 processed during CYs
2004 and 2005. We limited our review of Palmetto's internal control structure to those controls
applicable to the 39 high-dollar claims because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review allowed us to
establish a reasonable assurance regarding the authenticity and accuracy ofthe data obtained
from the National Claims History file, but we did not assess the completeness ofthe file.

We performed our fieldwork from July 2007 through May 2008. Our fieldwork included
contacting Palmetto, located in Columbia, South Carolina, and the hospitals that received high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federa11aws, regulations, and guidance;

   •    used CMS's National Claims History file to identify Medicare Part A inpatient
        claimswith high-dollar payments;

    •   reviewed available CWF claims histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by a revised claim or
        whether the payments remained outstanding at the time of our fieldwork;

    •   contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect; and

    •   validated with Palmetto that overpayments occurred and refunds were appropriate.




                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Of the 39 high-dollar payments that Palmetto made to hospitals for inpatient services for CYs
2004 and 2005,23 were appropriate. The remaining 16 payments included 9 overpayments
totaling $110,930 that had not been repaid at the start of our audit and 7 payments for which we
were unable to determine the overpayment amount.

Contrary to Federal guidance, hospitals reported units of service inaccurately. Hospitals
attributed most ofthe incorrect claims to clerical errors. Palmetto made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in
place in CYs 2004 and 2005 to detect the errors.

FEDERAL REQUIREMENTS

CMS's "Medicare Claims Processing Manual," Publication No. 100-04, Chapter 1, section
80.3.2.2, requires hospitals to submit accurate claims to fiscal intermediaries to receive
reimbursement for inpatient services. Chapter 4, section 20.4, states: "The definition of service
units. .. is the number of times the service or procedure being reported was performed."

Section 3700 of CMS's "Medicare Intermediary Manual" states: "It is essential that you [the
fiscal intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic
data processing systems to preclude increased program costs and erroneous and/or delayed
payments."

Section 1886(d)(5)(A) of the Act provides for Medicare outlier payments to hospitals, in addition
to prospective payments, for cases incurring extraordinarily high costs. CMS provides for
additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient hospital
services furnished to a Medicare beneficiary if the hospital's charges exceed the DRG payment
for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Palmetto made overpayments totaling $110,930 for nine payments that hospitals had not
refunded prior to the start of our audit. For the remaining seven payments"hospitals also
reported excessive billing units; however, we were unable to determine the overpayment amount
because of other factors affecting the re-pricing of the claims. 3


3When the claims were originally paid, the cost to charge ratios, disproportionate share hospital ratios, and Indirect
Medical Education ratios used were outdated. Repricing the claims using updated information for the dates of
service of the claims resulted in the cost to charge ratio increasing.


                                                           3
CAUSES OF OVERPAYMENTS

Hospitals attributed most of the incorrect claims to clerical errors and to the reporting of
excessive charges that resulted in inappropriate outlier payments. In addition, Palmetto made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF
had sufficient edits in place in CYs 2004 and 2005 to detect the errors. In effect, CMS relied on
hospitals to notify the fiscal intermediaries of excessive payments and on beneficiaries to review
their "Explanation of Medicare Benefits" and disclose any errors. 4

RECOMMENDATIONS

We recommend that Palmetto:

       •   refund the $110,930 in identified overpayments related to nine payments;

       •   take appropriate action on the remaining seven payments with excessive units for which
           we were unable to determine the overpayment amount;

       •   use the results ofthis audit in its provider education activities related to proper
           documentation and data entry procedures; and

       •   consider implementing controls to identify and review all payments greater than
           $200,000 for inpatient services.

PALMETTO GBA COMMENTS

In its August 27, 2008, written comments on our draft report, Palmetto agreed to recover the
$110,930 in overpayments and adjust the 16 claims (9 related to the identified overpayments and
7 for which overpayment amounts were not determined). Palmetto stated that it would use the
results ofthis audit to enhance its existing provider education activities. Additionally, Palmetto
stated that it would implement controls to identify and review all payments greater than
$200,000 for inpatient services. The complete text of Palmetto's comments is included as the
Appendix.




4The  fiscal intermediary sends an "Explanation of Medicare Benefits" notice to the beneficiary after the hospital
files a claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          4
APPENDIX
                                                                                                                    APPENDIX
                                                                                                                     Page 1 of2



             Palmetto GBA.,                                                                                Bruce W. Hughes
                                                                                       Pf;".>~>klont: m~d Chl~~'.f ()p~Jn.2thlH ()ffk;fH




August 27. 2008


Peter J. Barbera
Regional Inspector Oeneral for Audit Services
Department ofHealth and Human Services
Office of Inspector General
61 Forsyth Street, S.W.• Suite 3T41
Atlanta, Georgia 30303

Reference: Draft Report No. A-04-07..()6022

Dear Mr. Barbera:
This letter is in response to the recent Office of Inspector General (OIG) draft report entitled "Review of
High-Dollar Payments for Inpatient Services Processed by Palmetto GBA. Intermediary #380. for the
Period January I, 2004, Through December .31, 2005." We appreciate the feedback that your review
provided and are committed to continuously improving our service to the Medicare beneficiaries and
providers we serve.

As stated in the draft report, overall it was found tbat 16 oithe 39 inpatient claims reviewed resulted in
overpayments totaling $110.930. It was detennined that the hospitals inaccurately reported units of
service. The hospitals attributed the incorrect claims to clerical errors. At the time, Palmetto OBA made
the overpayments because it did not have prepayment or postpayment controls to identitY aberrant
payments at the claim level. In addition. neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place during calendar years 2004 and 2005 to detect and
prevent excessive payments.

Palmetto OBA will adhere to the recommendation of implementing controls to identitY and review all
payments greater than $200,000. Typically the review of records: to substantiate level of service, (i.e.
medical necessity of an inpatient admission, length of stay, and certain procedutes) is the responsibility
of the QIO. However. we continue to explore opportunities to expand and implement additional
prepayment edits to mitigate excessive payments.

Palmetto OBA will also adhere to the recommendations set forth by the 010 review to recover the
$110,930 in identified overpayments. Palmetto OBA win adjust the 16 claims and all providers will be
notified of the anticipated adjustment. We anticipate timely completion ofall adjustments upon receipt
ofclaims listing.

In addition,. Palmetto GBA maintains a consistent approach in our provider education strategy focusing
on accurate billing, documentation of claitns data with emphasis on claims data reflecting the services
provided are medically reasonable and necessary. In 2007, we proactively implemented a reason code
to perform an assessment of high dollar claims. 70045 • Review for Possible Overpayment. Provider
outreach and education was completed relevant to billing and the implementation of reason code 70045.

                                 www.palmettogba.comlpeSI Office Box 100134
                                       ISO 1lOO1 :2000 Columbia. South CaroNna 29202-3134
                                                                                                  APPENDIX
                                                                                                   Page 2 of2

Peter J. Barbera
August 27, 2008
Page 2



    Articles were published that addressed the high dollar edit and the application to all bill types. In
    addition, we presented practical information for use when filing high dollar claims in our 2007 Summer
    Hospital Workshop and South Carolina hospital state association meeting. Palmetto GBA continues to
    take a very tangible approach to provider education delivering clear, concise. and timely instruction in
    all possible educational venues.

    Futuxe educational efforts will be further enhanced to leverage data from this review in order to perfonn
    targeted areas of billing relevant to high-dollar payments for inpatient services. We intend to cover this
    topic in our ACT call on September, I], 2008; develop an enhanced provider education article for the
    Palmetto aDA website as wen a:l), include an article in the next monthly Medicare Advisory.

    Thank you for providing Palmetto GBA with the opportunity to provide feedback regarding your
    review. If you have any questions, please do .oot hesitate to contact me.




    cc:    Sandra Y. Brown. Atlanta Regional Office, eMS
           John Delaney, Dallas Regional Office, eMS
